UNITED STATES SUPREME COURT
CERTIFICATE OF SERVICE
No.
ANTHONY THOMAS GRIMES,
Petitioner,
Vv.
KENTUCKY,

Respondent.

I, J. Vincent Aprile II, hereby certify, pursuant to Supreme Court Rule 29(5)(b), that on
this 13" day of July 2020 one (1) copy of this petition for certiorari has been mailed, first class
postage prepaid, to counsel of record for the Respondent, Kentucky:

James Havey

Assistant Attorney General

Office of the Solicitor General
Criminal Appeals Unit

1024 Capital Center Drive, Suite 200

Frankfort, Kentucky 40601
502.696.5342

  

. Vincent Aprile Il
Counsel of Record for Petitioner Grimes
Member, Bar of the U.S. Supreme Court
Lynch, Cox, Gilman and Goodman, P.S.C.
500 West Jefferson Street, Suite 2100
Louisville, Kentucky 40202

502.589.4215

  
